                            SOCIAL SECURITY
                                     May 28, 2010

The Honorable Max Baucus
Chairman
Committee on Finance
United States Senate
Washington, D.C. 20510

Dear Senator Baucus:

On March 25, 2009, your staff asked that we review allegations by the American
Association of Social Security Disability Consultants (AASSDC) that (1) medical
consultant (MC) assessments were altered and/or destroyed in the disability
determination services, (2) MCs were pressured to produce specific assessments, and
(3) disability examiners were seeking certain MCs to obtain specific assessments.

In February 2010, the House Committee on Ways and Means received additional
information from the AASSDC expressing concerns about information obtained for this
review.

Thank you for the opportunity to provide the Committee with the requested information.
To ensure the Social Security Administration is aware of the information provided to
your office, we are forwarding a copy of this report to the Agency. I have also sent
similar responses to Ranking Member Charles E. Grassley of the Senate Committee on
Finance, as well as, Acting Chairman Earl Pomeroy and Ranking Member Sam
Johnson of the House Committee on Ways and Means, Subcommittee on Social
Security.

If you have any questions, please call me, or have your staff contact Misha Kelly,
Congressional and Intra-governmental Liaison at (202) 358-6319.

                                                Sincerely,



                                                Patrick P. O’Carroll, Jr.
                                                Inspector General
Enclosure

cc:
Michael J. Astrue
Charles E. Grassley
Sam Johnson
Earl Pomeroy

            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
                            SOCIAL SECURITY
                                     May 28, 2010

The Honorable Charles E. Grassley
Ranking Member
Committee on Finance
United States Senate
Washington, D.C. 20510

Dear Senator Grassley:

On March 25, 2009, your staff asked that we review allegations by the American
Association of Social Security Disability Consultants (AASSDC) that (1) medical
consultant (MC) assessments were altered and/or destroyed in the disability
determination services, (2) MCs were pressured to produce specific assessments, and
(3) disability examiners were seeking certain MCs to obtain specific assessments.

In February 2010, the House Committee on Ways and Means received additional
information from the AASSDC expressing concerns about information obtained for this
review.

Thank you for the opportunity to provide the Committee with the requested information.
To ensure the Social Security Administration is aware of the information provided to
your office, we are forwarding a copy of this report to the Agency. I have also sent
similar responses to Chairman Max Baucus of the Senate Committee on Finance, as
well as, Acting Chairman Earl Pomeroy and Ranking Member Sam Johnson of the
House Committee on Ways and Means, Subcommittee on Social Security.

If you have any questions, please call me, or have your staff contact Misha Kelly,
Congressional and Intra-governmental Liaison at (202) 358-6319.

                                                Sincerely,



                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure

cc:
Michael J. Astrue
Max Baucus
Sam Johnson
Earl Pomeroy


            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
                            SOCIAL SECURITY
                                     May 28, 2010

The Honorable Earl Pomeroy
Chairman
Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Pomeroy:

On March 25, 2009, staff from the Senate Committee on Finance asked that we review
allegations by the American Association of Social Security Disability Consultants
(AASSDC) that (1) medical consultant (MC) assessments were altered and/or destroyed
in the disability determination services, (2) MCs were pressured to produce specific
assessments, and (3) disability examiners were seeking certain MCs to obtain specific
assessments.

In February 2010, your staff received additional information from the AASSDC
expressing concerns about information obtained for this review.

Thank you for the opportunity to provide the Committee with the requested information.
To ensure the Social Security Administration is aware of the information provided to
your office, we are forwarding a copy of this report to the Agency. I have also sent
similar responses to Ranking Member Sam Johnson of the House Committee on Ways
and Means, Subcommittee Social Security, as well as, Chairman Max Baucus and
Ranking Member Charles E. Grassley of the Senate Committee on Finance.

If you have any questions, please call me, or have your staff contact Misha Kelly,
Congressional and Intra-governmental Liaison at (202) 358-6319.

                                                Sincerely,



                                                Patrick P. O’Carroll, Jr.
                                                Inspector General
Enclosure

cc:
Michael J. Astrue
Max Baucus
Charles E. Grassley
Sam Johnson

            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
                            SOCIAL SECURITY
                                     May 28, 2010

The Honorable Sam Johnson
Ranking Member
Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Johnson:

On March 25, 2009, staff from the Senate Committee on Finance asked that we review
allegations by the American Association of Social Security Disability Consultants
(AASSDC) that (1) medical consultant (MC) assessments were altered and/or destroyed
in the disability determination services, (2) MCs were pressured to produce specific
assessments, and (3) disability examiners were seeking certain MCs to obtain specific
assessments.

In February 2010, your staff received additional information from the AASSDC
expressing concerns about information obtained for this review.

Thank you for the opportunity to provide the Committee with the requested information.
To ensure the Social Security Administration is aware of the information provided to
your office, we are forwarding a copy of this report to the Agency. I have also sent
similar responses to Acting Chairman Earl Pomeroy of the House Committee on Ways
and Means, Subcommittee on Social Security, as well as, Chairman Max Baucus and
Ranking Member Charles E. Grassley of the Senate Committee on Finance.

If you have any questions, please call me, or have your staff contact Misha Kelly,
Congressional and Intra-governmental Liaison at (202) 358-6319.

                                                Sincerely,



                                                Patrick P. O’Carroll, Jr.
                                                Inspector General
Enclosure

cc:
Michael J. Astrue
Max Baucus
Charles E. Grassley
Earl Pomeroy

            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

Disability Determination Services
Medical Consultant Assessments
          A-01-10-11007




            May 2010
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                            Background
OBJECTIVE
Our objective was to review allegations by the American Association of Social Security
Disability Consultants (AASSDC) 1 that (1) medical consultant (MC) 2 assessments were
altered and/or destroyed in the Disability Determination Services (DDS), (2) MCs were
pressured to produce specific assessments, and (3) disability examiners (DE) were
seeking certain MCs to obtain specific assessments.

BACKGROUND
The Social Security Administration (SSA) provides Disability Insurance (DI) and
Supplemental Security Income (SSI) disability payments to eligible individuals under
Titles II and XVI of the Social Security Act. 3 To receive either benefit, an individual must
first file an application with SSA.

Disability determinations under SSA’s DI and SSI programs are performed by a DDS in
each State or other responsible jurisdiction, according to Federal regulations. 4 A
claimant is required to prove that he or she is disabled by providing medical and other
evidence of disability. However, the DDS is responsible for making every reasonable
effort to help the claimant get medical reports from medical sources. All evidence in the
claimant's case record will be considered in making any determination.




1
 The AASSDC states that its purpose is to encourage medical consultant (MC) excellence in the
adjudication of SSA disability claims, express MC views, and support MC needs.
2
 MC refers to physicians, psychologists, psychiatrists, optometrists, podiatrists, and speech-language
pathologists employed by the DDS. SSA, POMS, DI 24501.001(c)(2).
3
    The Social Security Act §§ 201 et seq. and 1601 et seq., 42 U.S.C. §§ 401 et seq. and 1381 et seq.
4
    20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.



DDS Medical Consultant Assessments (A-01-10-11007)                                                       1
An adult is considered disabled under the Social Security Act if he or she is unable to
engage in any substantial gainful activity 5 because of a medically determinable
impairment that (1) can be expected to result in death or (2) has lasted (or can be
expected to last) for a continuous period of at least 12 months. 6

ROLES OF THE DISABILITY EXAMINER AND THE MEDICAL CONSULTANT

Generally, the DE and the MC work as a team—following SSA’s processes for
developing and evaluating claims—to determine whether a claimant is disabled under
the Social Security Act. See Appendix B for details. The DE gathers medical and
non-medical evidence related to the claimant’s impairment(s), functioning, and work
history. 7

The MC does not have sole authority to determine whether a claimant is disabled under
Social Security’s criteria. The MC provides expertise in evaluating impairments,
documenting findings, and preparing or reviewing assessments. 8 The assessment does
not include an opinion on whether the claimant is disabled but does include the
following:
• evaluation of the medical evidence to determine its adequacy for making disability
  decisions;
• determination whether the claimant’s impairment(s) is severe; 9



5
  20 C.F.R. §§ 404.1572 and 416.972: Substantial gainful activity (SGA) means the performance of
significant physical and/or mental activities in work for pay or profit, or in work of a type generally
performed for pay or profit. As of 2010, "countable earnings" of employees indicate SGA and "countable
income" of the self-employed is "substantial" if the amount averages more than $1,000 per month for non-
blind individuals or $1,640 for blind individuals, SSA, POMS, DI 10501.001.

6
  The Social Security Act §§ 216(i)(1), 223(d)(1) and,1614(a)(3), 42 U.S.C. §§ 416(i)(1), 423(d)(1) and
1382c(a)(3), see also 20 C.F.R. §§ 404.1505 and 416.905. A child is considered to be disabled for SSI
purposes under the Act if he or she has a medically determinable physical or mental impairment, which
results in marked and severe functional limitations, and which can be expected to result in death or, which
has lasted, or can be expected to last, for a continuous period of not less than 12 months. The Social
Security Act § 1614(a)(3)(C)(i), 42 U.S.C. § 1382c(a)(3)(C)(i). See also 20 C.F.R. § 416.906. The Social
Security Act also provides a separate definition of blindness for adults and children.
7
  Non-medical evidence is used to help show the severity of an individual’s impairment and how it affects
his or her ability to work or function. This type of evidence is obtained from educational personnel, public
and private social welfare agency personnel, spouses, parents, other caregivers, siblings, other relatives,
friends, neighbors, and clergy. 20 C.F.R. §§ 404.1513(d) and 416.913(d).
8
 Each assessment form must have a reviewing MC’s actual physical signature or an approved electronic
signature—unless the DE is a single decision maker. SSA, POMS, DI 26510.089.
9
 20 C.F.R. §§ 404.1520(c), 404.1521, 416.920(c) and 416.921: “Severe” is a term of art in SSA’s rules.
A severe impairment must significantly limit a person’s physical or mental capacity to perform one or more
basic work activities as required in most jobs. Also, see Social Security Ruling 85-28.



DDS Medical Consultant Assessments (A-01-10-11007)                                                      2
• determination of whether the claimant’s impairment(s) meets or equals a listing in
  SSA’s Listing of Impairments; 10 and
• determination of the claimant’s residual functional capacity (RFC) if a listing is not
  met or equaled. 11

The RFC is an individualized assessment of the claimant’s impairments and abilities
based on all available evidence. SSA does not provide guidance on assessing an RFC
for specific impairments on a case-by-case basis. However, SSA’s policies and
procedures give the MC and DE guidance on how to address specific issues within an
RFC, such as the effects of treatment and symptoms (including pain and fatigue) and
medical source statements about what the claimant can still do.

With the exception of single decision maker (SDM) States, the DE determines whether
a claimant is disabled under Social Security’s criteria and must consult with the MC to
resolve medical issues and medical evidence interpretations. 12 The disability
determination is based on medical and non-medical criteria, such as requirements in the
Social Security Act; Agency rulings, policies, and procedures; court rulings; and
vocational factors, including the claimant’s age, education, and past work experience.

In some States, a DE can make the disability determination alone if he or she is a SDM.
SSA provides SDMs the authority to complete all disability determination forms and to
make initial disability determinations without MC approval or review on all fully favorable
adult cases, with noted exceptions. 13

The disability folder contains all documentation supporting the disability decision. This
includes case development worksheets and DDS actions, such as establishing a

10
   SSA’s Listing of Impairments describes impairments considered severe enough to prevent an adult
from doing any gainful activity and impairments considered severe enough to cause a child to have
marked and severe functional limitations. 20 C.F.R. §§ 404.1525 and 416.925.
11
  20 C.F.R. §§ 404.1545 and 416.945: An individual’s impairment(s), and any related symptoms, such as
pain, may cause physical and mental limitations that affect what he or she can do in a work setting. The
residual functional capacity is the most the individual can still do despite these limitations. SSA assesses
residual functional capacity based on all relevant evidence in the case record.
12
  SSA, POMS, DI 12015.002 and DI 12015.003. In 1999, SSA began piloting the SDM model in
10 States (Alabama, Alaska, California—[Los Angeles North and West Branches], Colorado, Louisiana,
Michigan, Missouri, New Hampshire, New York, and Pennsylvania). Since 1999, the Agency has
selected nine more States and one U.S. territory to test the SDM model (Florida, Guam, Kansas,
Kentucky, Maine, Nevada, North Carolina, Vermont, Washington, and West Virginia).
13
   MCs must review and sign all disability claims involving (1) Quick Disability Determinations,
(2) Compassionate Allowances, (3) initial denials or less than fully favorable determinations in which there
is evidence the claimant has a mental impairment, (4) SSI disabled child cases, (5) continuing disability
reviews, and (6) reconsiderations. SSA, POMS, DI 12015.003, DI 23022.050(A), DI 27001.001(D),
DI 81020.110(B)(1), and DI 26510.089. On March 4, 2010, SSA issued a notice of proposed rulemaking
to allow SDMs and other DEs to make fully favorable determinations for adult claims identified as Quick
Disability Determinations and Compassionate Allowances without MC approval. Federal Register,
Vol. 75, No. 42, 75 FR 9821-9827.


DDS Medical Consultant Assessments (A-01-10-11007)                                                      3
medically determinable impairment(s), assessing the severity of impairment,
determining the duration of impairment, and establishing the onset date of impairment.

The DE (not the MC) decides what information reflects the final disability determination
and what to retain in the disability folder. 14 When multiple assessments or forms are in
a disability folder, the DE removes any assessments or forms that do not support the
disability determination. 15

ROLES OF SSA AND DDS

SSA funds 100 percent of necessary DDS costs but is not involved in the ongoing
management of the disability program at the DDS except as necessary and in
accordance with regulations. 16 SSA provides operational standards, instructions,
procedural advice, technical support, and management direction to DDSs in support of
the Agency’s disability programs. DDSs are required to establish and maintain
adequate and responsive internal management controls and reporting mechanisms.
Each DDS is also responsible for establishing a quality assurance system, with both in-
line and end-of-line reviews, designed to detect and correct errors or problems and to
promote quality in all aspects of DDS claims processing. See Appendix C for details of
SSA and DDS responsibilities.

SSA’s Office of Quality Performance measures the accuracy of DDS determinations
through two different reviews. The Quality Assurance Reviews—including both
allowances and denials—found the net accuracy rates of initial disability determinations
ranged from 96.3 to 96.8 percent in Fiscal Years (FY) 2005 through 2009. The Pre-
Effectuation Reviews—including at least half of all initial and reconsideration level
allowances—found the accuracy rates ranged from 97.9 to 98.7 percent in FYs 2005
through 2008. See Appendix D.

In March 2009, the Committee on Finance requested we review allegations from the
AASSDC regarding the alteration and/or destruction of MC assessments in the DDS.
See Appendix E for details regarding the allegations.

To perform our review, we researched SSA’s policies regarding the processing and
documenting of MC assessments. We also reviewed SSA system controls for the
disability folder. Additionally, we contacted 468 DDS employees nationwide about the
processing and documenting of MC assessments. Specifically, we contacted



14
  SSA, POMS, DI 20503.001. We contacted America’s Health Insurance Plan (AHIP), a national
association that represents nearly 1,300 companies providing health insurance coverage to more than
200 million Americans, for information regarding our review. The AHIP informed us that they were not
aware of a national standard for retaining internal assessment forms in a disability claim folder.
15
     SSA, POMS, DI 26510.089(c).
16
     SSA, POMS, DI 39563.200; see also, 20 C.F.R. §§ 404.1603, 404.1626, 416.1003 and 416.1026.


DDS Medical Consultant Assessments (A-01-10-11007)                                                 4
• 52 DDS Administrators (which included each of the 50 States plus Washington, D.C.
  and Puerto Rico),
• 208 DDS DEs (4 randomly selected from each DDS), and
• 208 DDS MCs (4 randomly selected from each DDS).

We also contacted SSA’s Regional Offices and Office of Disability Determinations and
other disability insurance providers for information for our review. Additionally, we
reviewed examples of claims with a MC assessment deleted from the disability folder.
See Appendix F for the questions we asked DDS employees and see Appendix G for
details of our scope, methodology, and sample results.




DDS Medical Consultant Assessments (A-01-10-11007)                                 5
                                                          Results of Review
Based on feedback from DDS and SSA employees, our examination of controls over
the documentation of disability determinations, and our review of some actual cases, we
found that generally (1) MC assessments were not altered and/or inappropriately
deleted in the DDS, and (2) MCs were not pressured to produce specific assessments.
We also found that the majority of DEs responding to our survey did not seek certain
MCs to obtain specific assessments.

Table 1 shows the number of DDS employees sampled and who participated in our
review. 17

            Table 1: Number of DDS Staff Who Participated in Our Review
            DDS Position              Population            Sampled              Participants
     Medical Consultant                  2,240                208                 189 (91%)
     Disability Examiner                 8,172                208                 197 (95%)
     Administrator                          52                 52                 52 (100%)
     TOTAL                              10,464                468                 438 (94%) 18

ALLEGATIONS
Allegation 1: Medical Consultant Assessments Were Altered and/or Deleted in
the Disability Determination Services
When asked, MCs generally indicated that assessments were not altered.
                                                      Chart 1: Sample Results of 189 MC
Of the 189 MCs who participated in                      Responses Regarding Altered
our review,                                                      Assessments
•    187 indicated assessments were
     not altered, and
                                                  Assessment
•    2 indicated assessments were                 Not Altered
     altered.                                      187 MCs
                                                    (99%)
                                                                                    Assessment
                                                                                      Altered
                                                                                    2 MCs (1%)



17
  In response to concerns about security and confidentiality, we offered several options for DDS
employees to provide us information. Of the 468 sampled individuals, 413 responded by email through
SSA’s systems; 3 responded from a non-SSA email address; 26 did not respond; 20 faxed their
responses; 4 declined to participate in our review; and 2 responded by telephone.
18
   In planning our review, we followed the Government Accountability Office’s guidance on developing
and using questionnaires (which includes instructions on asking questions about sensitive issues). An
effective response rate for questionnaires ranges between 75 to 95 percent. GAO-PEMD-10.1.7,
October 1993.


DDS Medical Consultant Assessments (A-01-10-11007)                                                  6
Of the two MCs who indicated an assessment was altered, each described one-time
occurrences. In one of these cases, the MC prepared a complex assessment not taken
into consideration when making the final disability determination. This occurred in a
DDS with SDM authority and a supervisor noted that they did not consider the MC’s
assessment. In the other instance, the MC did not give details other than it occurred
over 2 years ago.

When asked, MCs generally indicated that assessments were not deleted.
                                                        Chart 2: Sample Results of 189 MC
Of the 189 MCs who participated in                        Responses Regarding Deleted
our review,                                                        Assessments
•     182 indicated assessments were
      not deleted, and
                                                 Assessment
•     7 indicated assessments were               Not Deleted
                                                  182 MCs
      deleted.                                     (96%)

                                                                 Assessment
Of the seven MCs who indicated an                                   Deleted
assessment was deleted, six reported                              7 MCs (4%)
it was a one-time occurrence. For
example, an MC indicated an assessment was deleted because a more experienced
consultant provided another assessment. The MC was notified and made aware of why
the DE removed his assessment from the disability folder.

In another example, an MC indicated assessments were removed from the disability
folder in certain instances such as a second MC assessment, the disability
determination was made by the regional office, or the disability folder contained
contradictory forms or narratives. Each of these instances was in accordance with
SSA’s policies and procedures. 19

Additionally, of the seven MCs who indicated altered or deleted assessments,
three brought these instances to the attention of management. 20 When asked, 7 of the
52 DDS administrators indicated an MC had brought to their attention an altered or
deleted assessment. For example, an MC notified the DDS administrator of an
assessment that had a written comment deleted. In this instance, DDS supervisors
removed the MC’s comment because it contained inappropriate language.

In another example, an MC notified a DDS administrator of an assessment that was
deleted from the disability folder. According to the DDS administrator, “…this is not an
accepted practice...” The administrator instructed staff not to remove any signed forms
from the disability folder without discussing with the MC and/or their supervisor. The
administrator stated “…this is not a common occurrence.”

19
     SSA, POMS, DI 81020.110 and DI 30005.235.
20
  In total, seven MCs indicated an altered or deleted assessment. Of these seven MCs, two indicated
both an altered and a deleted assessment.


DDS Medical Consultant Assessments (A-01-10-11007)                                                7
When asked, DEs generally indicated that they did not alter or delete MC assessments.
Of the 197 DEs who participated in our review, 66 indicated removal of assessments
from the disability folder for the following reasons:

•     MC second assessment that better supported the disability determination,
•     receipt of new medical evidence,
•     adherence to SSA policy,
•     assessment did not apply to the disability determination, or
•     MC was not available to change an assessment he or she had prepared. 21

These instances generally occurred to support the disability determination or process
the case. For example, one DE removed an assessment from the disability folder
because of new evidence. In this situation, a new assessment was required, and the
original assessment was no longer valid. Therefore, the DE removed the original
assessment from the disability folder as only documentation supporting the disability
determination should be retained in the disability folder. 22

One of SSA’s regional offices commented that the AASSDC may perceive that
assessments were being altered or destroyed, but may have been unaware there were
business and policy reasons that required changing an assessment. For example, an
assessment prepared may have to be changed while training a new MC or during a
quality review. 23

When asked how much weight was placed on MC assessments when deciding a case,
167 of the 197 DEs responding to our review answered. As shown in Table 2, 161 of
the 167 DEs (96 percent) indicated placing high to medium weight on MC assessments.

                  Table 2: Amount of Weight Disability Examiners Place
                         on MC Assessments in Deciding a Case
                      Weight of
                                               Participants              Portion
                     Assessment
                High                               139                    83%
                Medium                              22                    13%
                Low                                  3                     2%
                Little to None                       3                     2%
                Total                              167                   100%




21
 For example, the MC who prepared the original assessment may be sick or on vacation; therefore, the
DE or supervisor would reassign the assessment.
22
     SSA, POMS, DI 20503.001.
23
     SSA, POMS, DI 30005.235.


DDS Medical Consultant Assessments (A-01-10-11007)                                               8
SYSTEM CONTROLS

When multiple MCs or SDMs are involved in assessing a case, one of them certifies the
case as the overall case reviewer. DDS systems do not allow an MC to be removed, or
another MC assigned to a case, when the current MC has already certified the case.
The system also retains a history of MC status changes and the reasons for those
changes.

When an MC has prepared an assessment, it can be unsigned and changed by the MC
or the DE. However, DDS systems require the assessment be re-signed by the
assigned MC or an SDM before the case can be closed.

Once a form is in the disability folder it cannot be altered or modified. Therefore, when
an assessment needs to be changed or updated, a new assessment form must be
created and placed in the folder.

SSA’s systems indicate whether documents were deleted from the disability folder.
Assessments can be deleted from the disability folder, however, they remain in SSA’s
central repository. Also, SSA maintains an audit trail of all user actions, including
deleting documents from the disability folder. Authorized SSA personnel may retrieve
an assessment no longer associated with the disability folder. Therefore, no
assessments are actually deleted from SSA’s records. See Appendix H for more details
on SSA and DDS case processing systems.

In FY 2009, DDSs adjudicated almost 3.9 million disability claims, and SSA processed
more than 660,000 hearings. During the same period, about 152,000 assessments
were deleted from disability folders.

In March 2010, we asked SSA for examples of deleted assessments and the Agency
provided a list of 25 claims where the MC assessment was deleted from the electronic
disability folder. 24 We reviewed these claims and determined these assessments were
all deleted in accordance with SSA’s policies and procedures. Specifically,
•     18 were duplicate copies of assessments;
•     4 were returns from a quality assurance component, and the prior assessments
      were deleted because they did not reflect the final determination on the claim;
•     2 were deleted by mistake, but the deletion did not impact the outcome of the
      claim; 25 and
•     1 was the same MC who updated the assessment and deleted 2 prior versions when
      new evidence was received.

24
     The 25 cases were not randomly selected.
25
  In one case, all the evidence was mistakenly moved to the temporary section of the folder (where it
could later be deleted). In the other case, the MC assessment was mistakenly deleted, but the claim was
denied for technical reasons, so the assessment was not relevant to the determination.


DDS Medical Consultant Assessments (A-01-10-11007)                                                 9
Allegation 2: Medical Consultants Were Pressured to Produce Specific
Assessments at the Disability Determination Services

When asked, MCs generally indicated they were not pressured to produce specific
assessments. 26

Of the 189 MCs who participated in our                  Chart 3: Sample Results of 189 MC
review,                                               Responses Regarding Being Pressured
                                                        to Produce Specific Assessments
•    174 indicated they were not pressured
     to prepare a specific assessment,                  Not
                                                     Pressured                       Not Pressured
                                                     174 MCs                          but Asked
•    10 indicated they were not pressured,             (92%)                            10 MCs
                                                                                         (5%)
     however, they had been asked to sign
     or prepare a specific assessment which                                          Pressured
                                                                                      5 MCs
     conflicted with their opinion, and                                                (3%)


•    5 indicated they were pressured to sign or prepare a specific assessment that
     conflicted with their opinion.

Of the 5 MCs who indicated they were pressured to produce specific assessments, a
few provided details of such instances. For example, one MC indicated being
pressured when management became involved in case assessment disagreements with
a DE. If the MC continued to disagree with the case assessment requested by
management, he would sign off on the case noting “Signed as requested by the Chief
Medical Consultant.”

If an MC indicated that he or she was asked or pressured to produce specific
assessments, we then asked whether DDS management explained any consequences
for not producing an assessment as instructed. Of the 15 MCs who indicated being
asked or pressured to produce specific assessments, 4 responded that DDS
management explained the consequences of not producing an assessment as
instructed.

For example, an MC refused to sign a specified assessment, and the supervisor
requested that the MC’s time, attendance, and production be monitored. The MC
described the situation as intimidating and reported it to the Regional Administrator who
ordered corrective action and resolved the issue. The MC stated this occurred about
3 years ago and the situation was completely resolved and was no longer an issue.



26
  In February 2010, SSA OIG issued the report, Alabama Disability Determination Service’s Business
Process for Adjudicating Disability Claims (A-08-09-29163). The review concluded that, at a minimum, a
perception existed that Alabama DDS pressured some MCs to increase their disability allowance rates.
The review was unable to substantiate the allegation that the Alabama DDS had waged an intimidation
campaign to dictate MC allowance rates.


DDS Medical Consultant Assessments (A-01-10-11007)                                                   10
MC ASSESSMENT DISAGREEMENTS

MC assessments in the disability folder must support the disability determination. 27 At
times, DDS management or the DE may disagree with an MC’s assessment. When this
happens, some DDSs indicated they have procedures to resolve such disagreements.

One DDS administrator outlined the following procedures to resolve disagreements
between the MC and DE regarding assessments.

             If the DE disagrees with the MC’s assessment, the DE should discuss the
 Step 1
             case with the MC and come to an agreement.

             If not resolved by Step 1, the DE should discuss the matter with his/her
 Step 2
             Supervisor and/or the Chief Medical Consultant to reach an agreement.

             If not resolved by Step 2, a group consisting of an MC, Chief Medical
 Step 3      Consultant, and 2 to 3 other staff members reviews the case to reach an
             agreement regarding the case.

             If not resolved by Step 3, the DDS refers the case to the regional medical
 Step 4
             staff for consultation.


MCs generally indicated the process to resolve disagreements was good. Of the
189 MCs who participated in our review, 78 did not provide an opinion of the process to
resolve disagreements.
                                              Chart 4: Sample Results of 111 MC Opinions
Of the 111 MCs who responded:                 on the Process to Resolve Disagreements

                                              Very Good
•     10 said the process was very good,      10 MCs (9%)

•     98 said the process was good,           Very Poor                        Good
                                                                              98 MCs
•     2 said the process was poor, and        1 MC (1%)
                                                                               (88%)

•     1 said the process was very poor.           Poor
                                               2 MCs (2%)


For example, an MC responded that,
“…the disability evaluation process generally is effective and that matters of differences
in case evaluation are generally resolved adequately given the situation that many of
the cases are difficult and subject to varying interpretations.”

Another MC responded that, “…the process can be improved by continuing to support
an environment of open communication between consultants and examiners,


27
     SSA, POMS, DI 20503.001.


DDS Medical Consultant Assessments (A-01-10-11007)                                         11
recognizing the medical expertise of consultants and programmatic expertise of
examiners and the common goal of well-reasoned decisions for claimants.”

Allegation 3: Disability Determination Services Disability Examiners are Seeking
Specific Consultants to Obtain Specific Assessments

When asked, 108 of the 197 DEs participating in our review indicated they did not select
specific MCs to review a case. The 89 DEs who indicated they had chosen specific
MCs to prepare assessments did so for the following reasons:

•    MC medical expertise,
•    prior case discussion with MC, 28
•    MC processing speed, or
•    to obtain a certain case result.

Of the 89 DEs who indicated choosing specific MCs to prepare assessments, 65 chose
an MC based on their medical expertise. For example, one DE indicated selecting an
MC not for a specific result but for the MC’s medical expertise, such as knowledge
regarding cancer, pediatric, or cardiac cases.

In another example, one DE recommended a particular MC to review a case but not to
get a certain result. The DE thought the MC’s clinical background or medical expertise
was “…more suited to the characteristics of the case, hence, they would be more likely
to render an appropriate conclusion.”

Of the 89 DEs who indicated choosing specific MCs to prepare assessments, 5 chose a
specific MC to obtain a certain case result. For example, a DE assigned a case to a
specific MC because in the past, they reached an agreement when reviewing a similar
case.

When asked how case assessments were assigned to MCs, 37 DDS administrators
(71 percent) indicated case assessments were assigned by a general queue or by
medical expertise. Additionally, several DDS administrators responded that their DDS’s
case processing system does not allow for DEs to choose a specific MC.

When asked, 5 of the 189 MCs responded they were aware of instances when a case
was or was not assigned to them because a certain result was desired.




28
  A DE may consult with an MC on a case to determine the sufficiency of the evidence prior to requesting
an assessment.


DDS Medical Consultant Assessments (A-01-10-11007)                                                  12
                                                            Conclusions
Based on feedback from DDS and SSA employees, our examination of controls over
the documentation of disability determinations, and our review of some actual cases, we
found that generally (1) MC assessments were not altered and/or inappropriately
deleted in the DDS, and (2) MCs were not pressured to produce specific assessments.
We also found that the majority of DEs who responded to our survey did not seek
certain MCs to obtain specific assessments.




DDS Medical Consultant Assessments (A-01-10-11007)                                 13
                                         Appendices
APPENDIX A – Acronyms

APPENDIX B – The Social Security Administration’s Process for Evaluating Disability in
             Adults and Children

APPENDIX C – Social Security Administration and Disability Determination Services
             Responsibilities

APPENDIX D – Quality Reviews at Disability Determinations

APPENDIX E – Details of American Association of Social Security Disability
             Consultants Allegation

APPENDIX F – Disability Determination Services Employee Questions

APPENDIX G – Scope, Methodology, and Sample Results

APPENDIX H – Case Processing Systems




DDS Medical Consultant Assessments (A-01-10-11007)
                                                                    Appendix A

Acronyms
    AASSDC           American Association of Social Security Disability Consultants
    Act              Social Security Act
    AHIP             America’s Health Insurance Plans
    C.F.R.           Code of Federal Regulations
    DDS              Disability Determination Services
    DE               Disability Examiner
    DI               Disability Insurance
    DQB              Disability Quality Branch
    eCAT             Electronic Case Analysis Tool
    EF               Electronic Folder
    FY               Fiscal Year
    MC               Medical Consultant
    POMS             Program Operations Manual System
    RFC              Residual Functional Capacity
    SDM              Single Decision Maker
    SGA              Substantial Gainful Activity
    SSA              Social Security Administration
    SSI              Supplemental Security Income
    SSN              Social Security Number
    U.S.C.           United States Code




DDS Medical Consultant Assessments (A-01-10-11007)                                    A-1
                                                                                      Appendix B

The Social Security Administration’s Processes
for Evaluating Disability in Adults and Children
Under the Social Security Act (the Act), an adult is considered to be disabled if he or
she is unable to engage in substantial gainful activity (SGA) 1 by reason of a medically
determinable physical or mental impairment that can be expected to result in death or
that has lasted or can be expected to last for a continuous period of not less than
12 months. 2

The Social Security Administration (SSA) has a five-step sequential process for
evaluating disability for adults, which generally follows the definition of disability in the
Act (Chart B-1). 3 The steps are followed in order. If a decision about disability can be
made at a step, the analysis stops and a decision is made. If a decision about disability
cannot be made, the adjudicator proceeds to the next step.

At Step 1 in the process, SSA generally considers whether the claimant is performing
SGA. If the claimant is performing SGA, SSA finds that he or she is not disabled,
regardless of the severity of his or her impairments. If the claimant is not performing
SGA, the claim is sent for a determination of disability at a later step of the process.
When the claim is initially developed, the adjudicator generally requests all the evidence
needed for consideration at Steps 2 through 5 of the sequential evaluation process.
The adjudication process stops when a decision regarding disability can be made at any
step. 4




1
  20 C.F.R. §§ 404.1572 and 416.972: SGA means the performance of significant physical and/or mental
activities in work for pay or profit, or in work of a type generally performed for pay or profit. As of 2010,
"countable earnings" of employees indicate SGA and "countable income" of the self-employed is
"substantial" if the amount averages more than $1,000 per month for non-blind individuals or $1,640 for
blind individuals, SSA, POMS, DI 10501.001.
2
 The Social Security Act §§ 216(i)(1), 223(d)(1) and, 1614(a)(3), 42 U.S.C. §§ 416(i)(1), 423(d)(1) and
1382c(a)(3), see also 20 C.F.R. §§ 404.1505 and 416.905.
3
    20 C.F.R. §§ 404.1520 and 416.920.
4
 20 C.F.R. §§ 404.900 and 416.1400. If the claimant disagrees with the agency’s initial disability
determination, he or she can file an appeal within 60 days from the date of notice of the determination. In
most cases, there are three levels of administrative appeal: (1) reconsideration by the disability
determination services, (2) hearing by an administrative law judge, and (3) request for review by the
Appeals Council. If a claimant is still dissatisfied after exhausting administrative remedies, he or she can
appeal for a review by a Federal court.


DDS Medical Consultant Assessments (A-01-10-11007)                                                      B-1
At Step 2, SSA determines whether the claimant’s impairment—or combination of
impairments—is severe. 5 If the claimant does not have a medically determinable
impairment(s) that is severe, the claim is denied. If the claimant has a medically
determinable severe impairment(s), the Agency goes to Step 3 and looks to the Listing
of Impairments. If the severity of the impairment meets or medically equals a specific
listing and meets the duration requirement, the individual is determined to be disabled.

If the individual’s impairment does not meet or medically equal a listing, the Agency
goes to Step 4, and, if necessary, Step 5. At Step 4, the Agency determines whether
the claimant can perform any past relevant work, considering his or her residual
functional capacity (RFC) 6 and the physical and mental demands of the work he or she
did. If the claimant can perform past relevant work, the claim is denied. If the claimant
cannot perform past relevant work, SSA goes to Step 5 and determines whether the
claimant can perform any other work that exists in the national economy, considering
his or her RFC, age, education, and past work experience. If the claimant can perform
any other work, then SSA finds him or her not disabled; if the claimant cannot perform
any other work, SSA finds him or her disabled. 7




5
 20 C.F.R. §§ 404.1520(c), 404.1521, 416.920(c) and 416.921: “Severe” is a term of art in SSA’s rules.
An impairment or combination of impairments is not severe if it does not significantly limit an individual’s
physical or mental ability to do basic work activities. See Social Security Ruling 85-28.
6
  20 C.F.R. §§ 404.1545 and 416.945: An individual’s impairment(s), and any related symptoms, such as
pain, may cause physical and mental limitations that affect what he or she can do in a work setting. The
residual functional capacity is the most the individual can still do despite these limitations. SSA assesses
residual functional capacity based on all relevant evidence in the case record.
7
 SSA has another sequential process for evaluating whether a disabled beneficiary’s disability continues.
20 C.F.R. §§ 404.1594(f) and 416.994(b). This process generally requires a showing of medical
improvement related to the ability to work, but also includes steps like the ones in the initial sequential
evaluation process.


DDS Medical Consultant Assessments (A-01-10-11007)                                                      B-2
                            Chart B-1: SSA’s Five-Step Sequential Evaluation
                                   for Determining Disability for Adults


                                               Step 1: Work Test
                           Yes       Is the claimant engaging in
                                     substantial gainful activity?

                                                   No

                           No              Step 2: Severity Test
                                     Does the claimant have a medically
                                     determinable severe impairment(s)?

                                                   Yes

                      Not                  Step 3: Listings Test            Yes
                    Disabled        Does the impairment(s) meet or                  Disabled
                                    equal a listing?

                                                   No

                                         Step 4: Previous Work Test
                            No       Does the impairment(s) prevent the
                                     claimant from doing past relevant
                                     work?
                                                   Yes

                                           Step 5: Other Work Test
                                     Does the impairment(s) prevent the
                            No                                              Yes
                                     claimant from doing any other work
                                     that exists in the national economy?




Under the Act, an individual under the age of 18 is considered disabled for the purposes
of Supplemental Security Income (SSI) if he or she has a medically determinable
physical or mental impairment, which results in marked and severe functional
limitations, and which can be expected to result in death or which has lasted or can be
expected to last for a continuous period of not less than 12 months. 8

As shown in Chart B-2, SSA has a similar sequential process with three steps for
evaluating disability in children under SSI. 9 Steps 1 and 2 are the same as for adults,
with “severe” defined in terms of age-appropriate childhood functioning instead of basic
work-related activities. At Step 3, SSA determines whether the impairment(s) meets or
medically equals a listing or functionally equals the listings.

8
    The Social Security Act, § 1614(a)(3)(C), 42 U.S.C. § 1382c(a)(3)(C). See also 20 C.F.R. § 416.906.
9
    20 C.F.R. § 416.924.


DDS Medical Consultant Assessments (A-01-10-11007)                                                   B-3
                    Chart B-2: SSA’s Three-Step Sequential Evaluation
                          for Determining Disability for Children


                        Yes             Step 1: Work Test
                              Is the claimant engaging in
                              substantial gainful activity?

                                   No
                                    Step 2: Severity Test
                        No    Does the claimant have a medically
                              determinable severe impairment(s)?

                                            Yes
                                      Step 3: Listings Test
               Not      No    Does the impairment(s) meet or       Yes   Disabled
             Disabled         medically equal a listing or
                              functionally equal the listings?




DDS Medical Consultant Assessments (A-01-10-11007)                                  B-4
                                                                            Appendix C

Social Security Administration and Disability
Determination Services Responsibilities
Disability determinations under the Social Security Administration’s (SSA) Disability
Insurance (DI) and Supplemental Security Income (SSI) programs are performed by
disability determination services (DDS) in each State or other responsible jurisdiction.
Such determinations are required to be performed in accordance with Federal law and
underlying regulations. 1

Federal/State Relationship
SSA will not become involved in the States' (that is, DDS) ongoing management of the
disability program except as necessary and in accordance with regulations. 2 Therefore,
to comply with regulations, the DDS needs workload controls so disability
determinations are accurate and prompt. Management controls also are needed to
ensure the DDS has a responsive organizational structure, adequate facilities, qualified
personnel, medical consultant (MC) services, and a quality assurance function.

The State is responsible for furnishing reports and records relating to the administration
of the disability program for budget submittals, and for cooperating in the conduct of
audits. Consequently, appropriate reporting and fiscal controls must be used to achieve
these objectives. The State also must provide adequate controls to assure that all
applicants for, and recipients of, benefits are treated equally and courteously. In
accounting for all property used for disability program purposes an appropriate inventory
and control mechanism is required. Likewise, security controls and measures must be
established that will provide for safeguarding the records created by the State in
performing the disability determination function. Management must establish and
maintain controls needed to assure compliance with those provisions of Federal law,
regulations, and other written guidelines that apply to the States in performing the
disability determination function.

SSA’s Role
SSA funds 100 percent of necessary DDS costs but is not involved in the DDS’s
ongoing management of the disability program except as necessary and in accordance
with regulations. SSA provides operational standards, instructions, and advice, as well
as technical support and management direction to DDSs in support of SSA’s disability
programs.

1
    20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
2
    SSA, POMS, DI 39563.200; see also 20 C.F.R. §§ 404.1603 and 416.1003.


DDS Medical Consultant Assessments (A-01-10-11007)                                   C-1
Specifically, SSA

•   works with the DDS to provide and maintain an effective system for processing
    claims;
•   provides program standards, leadership, liaison, and oversight;
•   reviews regulations and other written guidelines periodically to ensure effective and
    uniform administration of the disability program;
•   provides training materials—and in some instances conducts or specifies training as
    required by regulations;
•   provides DDSs with funds for necessary costs in making disability determinations
    based on submitted estimates and available funding;
•   monitors and evaluates DDS performance;
•   maintains liaison with the medical profession nationally and with national
    organizations and agencies whose interests or activities may affect the disability
    program;
•   establishes acceptable DDS performance standards for initial accuracy and initial
    processing time.

DDS’s Role
The DDS is a State-run agency that makes disability determinations for SSA. At most
DDSs, a disability examiner (DE)—using SSA’s regulations, policies, and procedures—
obtains the relevant medical evidence and then, working with an MC evaluates the case
and determines whether the claimant is disabled under the Social Security Act. 3

Specifically, the DDS

•   makes timely and accurate disability determinations;
•   complies with regulations, rulings and other written guidelines, including standards
    established by SSA, and other provisions of Federal law and regulations that apply
    to the State in performing the disability determination function;
•   provides management needed to carry out the disability determination function;
•   provides organizational structure, facilities, qualified personnel, MC services, and a
    quality assurance function;
•   furnishes timely reports and records;
•   submits reports of expenditures as required;
•   cooperates with audits;
•   ensures that all applicants for and recipients of disability benefits are treated equally
    and courteously;
•   maintains property and equipment used for disability program purposes;
•   safeguards records created in making disability determinations;
•   takes part in research and demonstration projects;

3
 MC refers to physicians, psychologists, psychiatrists, optometrists, podiatrists, and speech-language
pathologists employed by the DDS. SSA, Program Operations Manual System (POMS), DI 24501.001.


DDS Medical Consultant Assessments (A-01-10-11007)                                                 C-2
 •     maintains liaison with the medical profession and organizations that may facilitate
       performing the disability determination function;
 •     assists SSA in other ways the Agency determines may promote the objectives of
       effective and uniform administration; and
 •     establishes cooperative working relationships with other agencies concerned with
       servicing the disabled.

 Each State is also responsible for establishing a quality assurance system, with both in-
 line and end-of-line reviews, designed to detect and correct errors or problems and to
 promote quality in all aspects of DDS claims processing. 4

 Table C-1 shows DDS Fiscal Year 2009 workload statistics by DDS. 5

                    Table C-1: Fiscal Year 2009 DDS Workload Statistics
                                                                                                Processing
                          Initial         Initial             Total
         DDS                                                                  Employees 7       Time (days)
                         Receipts      Dispositions       Dispositions6
                                                                                                 DI      SSI
Alabama                     74,197             72,384            91,103                360       66      66
Alaska                       4,585              4,374             5,286                 21       95      94
Arizona                     46,546             43,508            71,921                235       82      84
Arkansas                    47,353             44,624            68,175                261       60      63
California                 286,652            273,068           368,971               1322       78      82
Colorado                    33,242             27,662            33,185                135       93      93
Connecticut                 26,347             24,695            36,007                109       88      99
Delaware                     6,179              6,138             9,453                 41      106     105
District of Columbia         8,736              8,323            12,126                 43       71      76
Florida                    197,960            190,282           276,494                908       73      78
Georgia                    104,251             89,377           123,164                480       97     100
Hawaii                       8,421              8,090            10,430                 43       83      89
Idaho                       15,617             15,021            21,698                 62       65      65
Illinois                   105,672             96,050           140,396                474       73      77
Indiana                     68,603             63,552            92,707                278       77      82
Iowa                        23,431             22,956            34,076                129       74      80
Kansas                      24,018             21,923            33,373                115       77      77
Kentucky                    66,140             62,290            97,035                407       86      87

 4
     SSA, POMS, DI 30001.001.
 5
  SSA, Office of Disability Programs, Performance Management System On-Line Reporting of DDS
 Performance, February 2010.
 6
   The total dispositions show the total number of all DDS cases processed, including initial claims,
 reconsiderations, continuing disability reviews, and other special cases.
 7
  This is the actual number of work years—the equivalent of full-time positions—in each DDS, not the
 number of employees.


 DDS Medical Consultant Assessments (A-01-10-11007)                                                     C-3
                     Table C-1: Fiscal Year 2009 DDS Workload Statistics
                                                                                                   Processing
                          Initial          Initial             Total                           7
                                                                                                   Time (days)
        DDS                                                                     Employees
                         Receipts       Dispositions       Dispositions6
                                                                                                    DI     SSI
Louisiana                    64,036             60,790            72,848                 298        65     65
Maine                        14,448             13,705            19,774                  64        82     84
Maryland                     50,751             43,938            63,116                 231        86     90
Massachusetts                58,385             52,496            74,062                 274        87     94
Michigan                    115,664            107,181           126,332                 536        98    101
Minnesota                    37,917             35,579            52,069                 164        71     75
Mississippi                  52,463             50,331            82,814                 271        75     71
Missouri                     71,564             65,796            80,302                 294        62     62
Montana                       8,186              7,606            11,011                  47        80     82
Nebraska                     13,030             12,097            17,974                  80        68     67
Nevada                       21,816             18,874            26,712                 105        86     97
New Hampshire                10,951              9,919            11,384                  46        87     94
New Jersey                   57,213             55,297            77,724                 286        98    103
New Mexico                   21,457             19,367            26,829                  84        80     82
New York                    162,391            156,742           206,019                 822        71     76
North Carolina               99,531            100,416           147,413                 472       103    105
North Dakota                  3,756              3,361             5,058                  24        72     84
Ohio                        135,587            120,609           183,918                 614        89     92
Oklahoma                     42,946             39,163            58,590                 227        74     79
Oregon                       32,746             29,438            45,635                 177        77     79
Pennsylvania                134,190            123,351           148,065                 599        94     95
Puerto Rico                  20,632             20,109            27,399                 147       122     ***
Rhode Island                 11,417             10,008            14,506                  43       121    134
South Carolina               56,146             51,272            71,055                 298        93     93
South Dakota                  5,739              5,318             7,377                  30        85     97
Tennessee                    83,016             72,421           114,249                 458        92     94
Texas                       227,117            209,817           302,393                 998        59     61
Utah                         13,802             11,765            17,481                  72        93     98
Vermont                       5,685              5,256             7,428                  33        90     88
Virginia                     63,518             55,783            78,301                 338        84     90
Washington                   51,130             48,951            74,631                 255        68     72
West Virginia                28,135             26,401            44,833                 177        79     81
Wisconsin                    48,651             45,951            67,627                 220       109    116
Wyoming                       3,463              3,186             4,079                  17        72     74
Total                     2,975,429          2,766,611         3,894,608             14,224         81     83
 *** SSI is limited to residents of the 50 States, the District of Columbia, or the Northern Mariana Islands.




 DDS Medical Consultant Assessments (A-01-10-11007)                                                      C-4
                                                                                     Appendix D

Quality Reviews at Disability Determinations
To ensure a high level of accuracy, the Social Security Administration’s (SSA) Office of
Quality Performance conducts two types of Federal quality reviews of disability claims—
the Quality Assurance Review and the Pre-Effectuation review. 1 According to the
Social Security Act (the Act), the Quality Assurance Review is designed to assess the
disability determination services’ (DDS) performance and provide a statistically valid
measure of individual DDS performance in terms of decision accuracy and
documentation requirements for Disability Insurance claims. 2 The review includes an
equal number of both DDS allowances and denials. The purpose of the Pre-
Effectuation review is to detect and correct erroneous favorable determinations before
they are effectuated. As shown in Table D-1, in Fiscal Years (FY) 2005-2009, the net
accuracy of DDS initial determinations, as determined by the Quality Assurance
Review, ranged from 96.2 to 96.8 percent.

         Table D-1: Net Accuracy Rates: Federal Quality Assurance Reviews
                       of DDS Initial Disability Determinations
                                Disability            Cases          Changed            Net
          Fiscal Year
                              Determinations         Reviewed        Decisions        Accuracy
               Allowances                987,793          15,553               144           99.1%
       2009    Denials                 1,691,045          15,623               696           95.5%
               All                     2,678,838          31,176               840           96.8%

               Allowances                909,223          16,087               183           98.9%
       2008    Denials                 1,615,624          16,551               801           95.4%
               All                     2,524,847          32,638               984           96.6%

               Allowances                854,372          16,835               242           98.4%
       2007    Denials                 1,612,180          16,842               753           95.6%
               All                     2,466,552          33,677               995           96.6%

               Allowances                870,027          17,492               281           98.1%
       2006    Denials                 1,604,441          20,698               946           95.1%
               All                     2,474,468          38,190             1,227           96.2%

               Allowances                914,062          16,979               292           98.0%
       2005    Denials                 1,646,402          20,726               895           95.3%
               All                     2,560,464          37,705             1,187           96.3%



1
 Each State is also responsible for establishing its own quality assurance system, with both in-line and
end-of-line reviews, designed to detect and correct errors or problems and to promote quality in all
aspects of DDS claims processing. SSA, POMS, DI 30001.001.

2
 Disability Insurance claims are subject to the Quality Assurance Review and the Pre-Effectuation
Review, the Social Security Act § 221(c), 42 U.S.C. § 421(c). See also 20 C.F.R. §§ 404.1640 through
404.1643. Supplemental Security Income disability claims are subject to Pre-Effectuation review, the
Social Security Act § 1633(e), 42 U.S.C. § 1383b (e). See also 20 C.F.R. §§ 416.1040 through 416.1043.

DDS Medical Consultant Assessments (A-01-10-11007)                                                   D-1
The Act requires SSA to report to the Committee on Ways and Means of the House of
Representatives and to the Committee on Finance of the Senate on the pre-effectuation
reviews conducted during the previous fiscal year. The Act requires that SSA review at
least 50 percent of all State DDS initial and reconsideration allowances and a sufficient
number of continuing disability review continuances to ensure a high level of accuracy
in such determinations. Additionally, the Act requires that SSA select and review those
determinations deemed most likely to be incorrect. 3 As shown in Table D-2, in
FYs 2005-2008, the accuracy of DDS initial and reconsideration allowance decisions, as
determined in SSA's Pre-Effectuation reviews, ranged from 97.9 to 98.7 percent.

                  Table D-2: Net Accuracy Rates: Federal Pre-effectuation
                   Reviews of DDS Initial and Reconsideration Disability
                                 Determination Allowances
                Fiscal       Claims           Cases             Changed        Accuracy
                 Year        Allowed         Reviewed          to Denials        Rate
                  2008          805,756     434,847 (54.0%)            5,487           98.7%

                  2007          756,637     380,844 (50.3%)            6,694           98.2%

                  2006          571,272     295,336 (51.7%)            5,889           98.0%

                  2005          606,199     319,525 (52.7%)            6,659           97.9%




3
    The Social Security Act §§ 221(c) and 1633(e), 42 U.S.C. §§ 421(c) and 1383b(e).

DDS Medical Consultant Assessments (A-01-10-11007)                                             D-2
                                                                      Appendix E

Details of American Association of Social
Security Disability Consultants Allegation
Below is a summary of the allegation received from the American Association of Social
Security Disability Consultants (AASSDC).

      For many years, disability consultants have been aware of the occasional
      destruction of their opinions (case assessments) by persons who
      disagreed with their conclusions. Related problems have been the
      altering of opinions without the consultant’s knowledge or consent, the
      pressuring of consultants to produce opinions having specific conclusions,
      and the seeking of the opinions of specific consultants for the purpose of
      obtaining specific results (“doctor shopping”). We believe that these
      practices are inconsistent with the Social Security Administration’s (SSA)
      interest in a fair and honest adjudicatory process and should be curtailed.
      Because, prior to the creation of our Association, consultants had no
      effective representation with Congress or SSA, these concerns had not
      been raised.

      The national standard for the creation and preservation of records, used in
      almost all financial, medical and governmental entities, requires that
      anything placed in records remain in those records permanently without
      alteration. Changes in facts or opinions are noted by amending the
      records, not by destroying or altering prior records. Financial, medical and
      governmental institutions are expected to establish policies for the
      preservation of records prior to opening their doors. For example, a
      financial institution is expected to guarantee the preservation of depositors
      records and assets from the outset. Depositors are not asked to
      demonstrate losses in order to obtain those guarantees. Similarly, SSA
      should have guaranteed the integrity of claimants' records at all levels
      from the first days of the disability program and long ago have effectuated
      that guarantee through policy statements, regulations and employee
      training.




DDS Medical Consultant Assessments (A-01-10-11007)                                    E-1
In February 2010, the AASSDC followed up on the allegation above and stated
concerns regarding this review as follows:

       that because parts of the survey were carried out using State disability
       determination service computer systems, many consultants, fearing
       reprisals, did not feel free to answer the Inspector General’s questions
       fully and honestly. 1

       that because consultants have no way of tracking the fate of their
       opinions, they probably have not been aware of most instances of the
       destruction or alteration of their opinions,

       that a finding a “low” frequency of these problems not be seen as
       acceptable, and

       that in most states, consultants are forced to sign contracts which allow
       their termination with little or no notice. In no case is a reason required for
       termination. As long as consultants have so few rights under these
       contracts, various forms of pressure, such as requiring the pre-approval of
       opinions prior to placing them in a file, can be expected even if policies
       prohibiting the destruction and surreptitious alteration of consultant
       opinions are established.




1
  In response to concerns about security and confidentiality, we offered several options for DDS
employees to provide us information. Of the 468 sampled individuals, 413 responded by email through
SSA systems, 3 responded by email from a non-SSA address; 26 did not respond; 20 faxed their
responses; 4 declined to participate in our review; and 2 responded by telephone.


DDS Medical Consultant Assessments (A-01-10-11007)                                               E-2
                                                                       Appendix F

Disability Determination Services Employee
Questions
Our review included position specific questions for sampled disability determination
services (DDS) employees as listed below.

Table F-1 shows questions for our sample population of DDS medical consultants (MC).

                   Table F-1 : DDS Medical Consultant Questions
 1. How long have you been with the DDS?
 2. How are cases assigned to you for review?
 3. If an examiner, DDS management or Disability Quality Branch reaches a different
 conclusion than your assessment what generally happens?
 4. What is your opinion of the process used to resolve differences relating to
 assessments? How can it be improved?
 5. Have you ever been asked to prepare or revise an assessment to allow a case
 when you believe it should be denied (or vice versa)? Or have you been pressured to
 produce assessments having certain conclusions?
 6. If above was answered “yes” – did DDS management explain any consequences if
 you failed to comply?
 7. Are you aware of any instances where a case was or was not assigned to you to
 review because a certain result was desired? If yes, please explain.
 8. Do you know of any instance regarding an assessment you prepared that was not
 included or was removed from claim folder?
 9. Have any of your assessments been altered without your knowledge or consent? If
 yes, explain and provide Social Security Number (SSN) of claim if possible.
 10. If you answered “Yes” to questions #8 or #9 did you bring this matter to DDS
 management and what did they say and/or do? Can you provide us the SSNs of the
 claim involved?
 11. Do you have any additional thoughts you would like to share with us?




DDS Medical Consultant Assessments (A-01-10-11007)                                     F-1
Table F-2 shows questions for our sample population of DDS disability examiners (DE).

                   Table F-2 : DDS Disability Examiner Questions
 1. How long have you been with the DDS?
 2. What is your role in assigning cases to medical consultants?
 3. How frequently do you and a medical consultant reach different conclusions on a
 case?
 4. If you ever reached a different conclusion than a medical consultant’s assessment,
 how was it resolved (did you talk with the medical consultant about it, talk with DDS
 management, just let it go, etc.)?
 5. How much weight do you put on a medical consultant’s assessment(s) when
 deciding whether to allow or deny a case?
 6. How frequently do you remove a medical consultant’s assessment from a claim
 folder?
 7. If you ever removed a medical consultant’s assessment from the claim folder,
 please explain why.
 8. Do you ever select a specific medical consultant to review a case because a certain
 result is desired? If yes, please explain.
 9. Do you have any additional thoughts you would like to share with us?

Table F-3 shows questions for our sample population of DDS administrators.

                     Table F-3 : DDS Administrator Questions
 1. How long have you been with the DDS?
 2. Do you provide written or verbal guidance to DDS staff regarding how individual
 cases are assigned to medical consultants for review? How long has this guidance
 been in place? Please provide a short summary of the guidance.
 3. How frequently do you resolve differing opinions between an examiner and medical
 consultant?
 4. If an examiner and a medical consultant have differing opinions regarding an
 assessment, how is it handled?
 5. Do you ever direct an examiner or medical consultant to modify their initial
 assessment/conclusion?
 6. If a medical consultant and DDS Management have differing opinions regarding an
 assessment, how is it handled?
 7. If the Disability Quality Branch has a different opinion than a medical consultant’s
 assessment, how is it handled?


DDS Medical Consultant Assessments (A-01-10-11007)                                     F-2
                      Table F-3 : DDS Administrator Questions
 8. Has any doctor brought to your attention a assessment that was altered or
 deleted from the claim folder without his/her knowledge or consent? If yes, explain
 and provide SSN of claim if possible.
 9. Are you aware of any instance where a case was assigned to a specific medical
 consultant to review because a certain result was desired? If yes, please explain.

 10. Do you have any additional thoughts you would like to share with us?




DDS Medical Consultant Assessments (A-01-10-11007)                                     F-3
                                                                                   Appendix G

Scope, Methodology, and Sample Results
To achieve our objective, we:

•   Reviewed applicable Federal laws and regulations, as well as, Social Security
    Administration (SSA) policies and procedures.
•   Reviewed prior Office of the Inspector General reports.
•   Contacted SSA’s regional offices and the Office of Disability Determinations for input
    on our review.
•   Contacted other disability insurance providers for input on our review.
•   Contacted disability determination services (DDS) administrators from each of the
    52 DDSs (50 States plus the District of Columbia and Puerto Rico) about the
    processing and documenting of medical consultant (MC) assessments. 1
•   Obtained listings of DDS disability examiners (DE) and MCs from each DDS
    Administrator. Using these lists, we contacted four DEs and four MCs randomly
    selected from each DDS and asked about the processing and documenting of MC
    assessments.
•   For each DDS Administrator, DE, and MC sampled, we:
    o Emailed background information regarding our review and asked position specific
      questions.
    o Followed up twice with non-responsive individuals. For those who responded,
      we recorded and categorized information provided regarding the processing and
      documenting of MC assessments.
•   Reviewed procedures and controls for altering and deleting documents from the
    (official disability) certified electronic folder contents.
•   Reviewed examples of claims with a MC assessment deleted from the disability
    folder.

We conducted our review between November 2009 and April 2010 in Boston,
Massachusetts and Baltimore, Maryland. The principal entity audited was the Office of
Disability Determinations under the Deputy Commissioner for Operations. We
conducted our review in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspections.




1
 MC refers to physicians, psychologists, psychiatrists, optometrists, podiatrists, and speech-language
pathologists employed by the DDS, POMS, DI 24501.001(c)(2).


DDS Medical Consultant Assessments (A-01-10-11007)                                                   G-1
SAMPLE RESULTS

      Table G-1: Audit Population and DDS Staff Participating in Our Review
       DDS Position          Population        Sampled            Participants
    Medical Consultant          2,240             208              189 (91%)
    Disability Examiner         8,172             208              197 (95%)
    Administrator                  52              52              52 (100%)
    TOTAL                      10,464             468              438 (94%)

Table G-2 shows the number of DEs and MCs obtained from each DDS Administrator.
From each DDS population, we randomly sampled 4 MCs and 4 DEs and asked about
the processing and documenting of MC assessments.

            Table G-2: Audit Population-Medical Consultants and Disability
                                 Examiners by DDS
                            Number of                    Number of
                                          Portion of                   Portion of
                             Medical                     Disability
                                          Population                   Population
           DDS             Consultants                   Examiners
    Alabama                       56         2.50%             155          1.90%
    Alaska                         7         0.31%               12         0.15%
    Arizona                       58         2.59%             123          1.51%
    Arkansas                      22         0.98%             157          1.92%
    California                   180         8.04%             788          9.64%
    Colorado                      28         1.25%              64          0.78%
    Connecticut                   39         1.74%              80          0.98%
    Delaware                      13         0.58%              25          0.31%
    District of Columbia           7         0.31%              26          0.32%
    Florida                      175         7.81%             361          4.42%
    Georgia                       85         3.79%             273          3.34%
    Hawaii                        15         0.67%              21          0.26%
    Idaho                         11         0.49%              33          0.40%
    Illinois                      87         3.88%             202          2.47%
    Indiana                       34         1.52%             168          2.06%
    Iowa                          33         1.47%              73          0.89%
    Kansas                        27         1.21%              68          0.83%
    Kentucky                      40         1.79%             283          3.46%
    Louisiana                     41         1.83%             120          1.47%
    Maine                         15         0.67%              44          0.54%
    Maryland                      33         1.47%             110          1.35%
    Massachusetts                 84         3.75%             182          2.23%
    Michigan                      82         3.66%             290          3.55%



DDS Medical Consultant Assessments (A-01-10-11007)                                  G-2
           Table G-2: Audit Population-Medical Consultants and Disability
                                Examiners by DDS
                           Number of                  Number of
                                         Portion of                Portion of
                            Medical                   Disability
                                         Population                Population
          DDS             Consultants                 Examiners
    Minnesota                    32          1.43%          100        1.22%
    Mississippi                   34         1.52%          165        2.02%
    Missouri                      50         2.23%          145        1.77%
    Montana                       11         0.49%           20        0.24%
    Nebraska                      18         0.80%           41        0.50%
    Nevada                        18         0.80%           49        0.60%
    New Hampshire                 14         0.63%           24        0.29%
    New Jersey                    57         2.54%          166        2.03%
    New Mexico                    21         0.94%           52        0.64%
    New York                      90         4.02%          621        7.60%
    North Carolina                58         2.59%          326        3.99%
    North Dakota                   9         0.40%            8        0.10%
    Ohio                          87         3.88%          640        7.83%
    Oklahoma                      34         1.52%          104        1.27%
    Oregon                        17         0.76%          106        1.30%
    Pennsylvania                 103         4.60%          267        3.27%
    Puerto Rico                   24         1.07%           86        1.05%
    Rhode Island                  19         0.85%           26        0.32%
    South Carolina                36         1.61%          110        1.35%
    South Dakota                  14         0.63%           19        0.23%
    Tennessee                     69         3.08%          241        2.95%
    Texas                         59         2.63%          524        6.41%
    Utah                          23         1.03%           41        0.50%
    Vermont                       10         0.45%           15        0.18%
    Virginia                      43         1.92%          170        2.08%
    Washington                    64         2.86%          223        2.73%
    West Virginia                 20         0.89%           46        0.56%
    Wisconsin                     23         1.03%          170        2.08%
    Wyoming                       11         0.49%            9        0.11%
    TOTAL                      2,240       100.00%        8,172         100%




DDS Medical Consultant Assessments (A-01-10-11007)                              G-3
                                                                                   Appendix H

Case Processing Systems
In each Disability Determination Services (DDS), medical consultants (MC) and
disability examiners (DE) prepare assessments electronically using the Electronic Case
Analysis Tool (eCAT) 1 or the DDS case processing system. 2 Assessments and all
evidence used in disability determinations are stored in SSA’s Electronic Folder (EF).

The EF is a web-enabled application for storage and retrieval of data—including
scanned documents, computer-generated images, audio-recorded tapes, and faxed
documents. This information is accessed, viewed, and shared electronically by all
disability processing components. Data in the EF is stored in SSA’s central repository,
located at the Agency’s National Computing Center in Baltimore, Maryland and at
several DDS sites throughout the United States.

ASSESSMENTS PREPARED USING eCAT
In DDSs using eCAT, assessment information is captured in the application, combined
with all case data, and sent to the EF on a Disability Determination Explanation (DDE)
at the time of adjudication.

To complete the assessment, the MC or SDM must have appropriate authority to sign
the assessment. Any individual with access to the case can un-sign an assessment
and make changes. However, the assessment must be re-signed by a MC or a SDM
before the case is completed.


1
 eCAT is a web-based application that guides DEs in the analysis, documentation, and adjudication of a
disability claim and ensures that all relevant Agency policies are considered and documented when
making a disability determination. SSA reported that testing suggests eCAT may be effective in ensuring
policy-compliant determinations and useful for training new disability examiners and mentoring more
experienced staff. As a result, the Agency has begun a nationwide rollout of eCAT which is expected to
be completed by Calendar Year 2011.
2
  In some States, a DE can make the disability determination if he or she is a single decision maker
(SDM). In 1999, SSA began piloting the SDM model in 10 States. Since 1999, the Agency has selected
nine more States and one U.S. territory to test the SDM model. SSA provides SDMs the authority to
complete all disability determination forms and to make initial disability determinations without MC
approval or review on all fully favorable adult cases, with noted exceptions: (1) Quick Disability
Determinations and compassionate allowances, (2) initial denials or less than fully favorable
determinations in which there is evidence the claimant has a mental impairment, (3) disabled child cases,
(4) continuing disability reviews, and (5) reconsiderations. SSA, POMS, DI 12015.003, DI 23022.050(A),
DI 27001.001(D), DI 81020.110(B)(1), and DI 26510.089. On March 4, 2010, the Agency published a
notice of proposed rulemaking to allow disability examiners in all States to make some Quick Disability
Determinations and compassionate allowances without signoff by a DDS medical or psychological
consultant. The public comment period ended on April 5, 2010. Federal Register, Vol. 75, No. 42,
75 FR 9821-9827.


DDS Medical Consultant Assessments (A-01-10-11007)                                                   H-1
Both eCAT and the DDS case processing system require claims to be certified by a MC
or SDM. Only one signature is needed to certify the case.

ASSESSMENTS PREPARED USING CASE PROCESSING SYSTEMS
In DDSs not currently using eCAT, assessment forms are added to the EF as individual
documents as they are prepared in the case processing system.

In general, the DDS case processing system:

    •   provides a way for the user to specify and display the desired form,
    •   provides a way to track which assessments have been signed before a case can
        be closed,
    •   provides a way to track whether a signed assessment has been unsigned and
        ensures forms are re-signed before a case can be closed,
    •   ensures that new claims are assigned to the same MC already working a case,
    •   does not allow an MC to be removed and another MC assigned to a case when
        the current MC has already certified the case, and
    •   maintains a history of MC status changes.

Once an assessment is in the EF, it cannot be altered or modified. It can be unsigned,
but the case processing system will ensure that it is re-signed by the assigned MC or a
SDM before the claim is adjudicated.

To update an assessment already placed in the EF, a new document must be added to
the EF. If a prior assessment is no longer applicable, the DE can keep it or delete it
from the EF. 3 However, SSA’s policy is to remove all assessments that do not reflect
the final determination on the claim. All actions, such as deleting documents from the
EF, are recorded by DDS and SSA systems and can be traced to the individual
responsible.




3
  Although a document can be deleted or disassociated from the EF, it still remains in SSA’s central
repository. It is possible to re-associate the document to the case, provided one knows that the
document exists. DDS case processing systems, as well as quality reviews performed in the DDS and by
SSA’s Office of Quality Performance, ensure applicable assessments are present in every claim.


DDS Medical Consultant Assessments (A-01-10-11007)                                              H-2
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
